C@OCKLE

2311 Douglas Street ief
rers
Omaha, Nebraska 68102-1214 L © 8 a l B Ea 1923,

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850 No. 19-930

CIC SERVICES, LLC,
Petitioner,

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

Vv.
INTERNAL REVENUE SERVICE; DEPARTMENT OF TREASURY; UNITED STATES OF AMERICA,

Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly swom, upon my oath state that | did, on the 24th day of February, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF THE CATO INSTITUTE AS AMICUS CURIAE IN
SUPPORT OF PETITIONER in the above entitled case. All parties required to be served have been served by Priority Mail.

Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
Tlya Shapiro
Counsel of Record
Trevor Burrus
James T. Knight II
CATO INSTITUTE
1000 Mass. Ave., NW
Washington, DC 20001
(202) 842-0200
ishapiro@cato.org

Subscribed and sworn to before me this 24th day of February, 2020.
Jam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . .
State of Nebraska oe Ls Qudaw- .

My Commission Expires Nov 24, 2020

 

 

Notary Public

39435
 

 

Attorneys for Petitioner

Patrick Strawbridge Consovoy McCarthy PLLC 617-227-0548
Counsel of Record Ten Post Office Square
8th Floor South PMB #706
Boston, MA 02109

patrick@consovoymecarthy.com
Party name: CIC Services, LLC

Attomeys for Respondents

Noel J. Francisco Solicitor General 202-514-2217
Counsel of Record United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

SupremeCtBriefs@USDOIJ.gov

Party name: Internal Revenue Service

 
